           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


           FOLLOW-UP OF
  PENDING WORKERS’ COMPENSATION:
        THE SOCIAL SECURITY
    ADMINISTRATION CAN PREVENT
         MILLIONS IN TITLE II
     DISABILITY OVERPAYMENTS

   September 2005   A-08-05-25132




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY
MEMORANDUM

Date:   September 9, 2005                                                                     Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Follow-up of Pending Workers’ Compensation: The Social Security Administration Can
        Prevent Millions in Title II Disability Overpayments (A-08-05-25132)


        OBJECTIVE
        Our objective was to determine the status of corrective actions the Social Security
        Administration (SSA) had taken to address recommendations resulting from our
        June 2003 report, Pending Workers’ Compensation: The Social Security Administration
        Can Prevent Millions in Title II Disability Overpayments (A-08-02-12064).

        BACKGROUND
        All States require that employers provide workers’ compensation (WC) insurance for
        employees in the event they suffer work-related injuries or occupational diseases.1 The
        Social Security Act requires that SSA offset disability benefits for individuals who
        receive Federal, State or locally administered WC benefits in most States.2

        When an individual applies for Title II disability benefits, SSA field office personnel
        determine whether the applicant may also be receiving WC payments.3 If SSA
        approves disability benefits and the applicant’s WC claim is pending, SSA requires that
        the beneficiary self-report receipt of subsequent WC payments to SSA. Additionally,
        SSA policies and procedures require that personnel follow up on cases with pending
        1
         The District of Columbia, American Samoa, Guam, the Northern Mariana Islands, Puerto Rico, and the
        Virgin Islands have similar provisions.
        2
          SSA administers the Old-Age, Survivors and Disability Insurance program under Title II of the Social
        Security Act. Section 223(a) of the Act (42 U.S.C. § 423(a)) provides monthly disability benefits to
        insured individuals meeting specific disability requirements. Section 224 (42 U.S.C. § 424a) requires that
        SSA offset disability benefits by any other disability benefits paid under any law or plan of the United
        States, a State, or political subdivision. However, 14 States are required by State law to offset WC
        benefits with Title II benefits.
        3
         SSA’s WC policies and procedures are contained in Program Operations Manual System, section
        DI 52001.
Page 2 – The Commissioner


WC claims until they are resolved. To remind personnel to follow up on pending WC
claims, SSA’s Modernized Claims System generates a one-time diary alert to program
service center personnel 6 months after Title II benefit approval or on the expected WC
decision date, whichever occurs first. If the WC case is still pending when program
service center personnel attempt to resolve the first diary alert, they must manually
establish additional diaries to ensure cases are periodically monitored until they are
resolved. If program service center personnel do not establish additional diaries,
Title II disability cases with pending WC claims may never be resolved, and SSA
overpayments may occur.

Our June 2003 audit determined SSA had a significant backlog of pending WC cases.
Based on a sample review of these cases, we estimated that SSA overpaid
17,890 Title II disability beneficiaries almost $121 million because of unreported WC
payments. We concluded that, if SSA did not take a proactive role in properly managing
its pending WC workload, it would continue to build a significant backlog of pending WC
cases and pay millions of dollars in additional overpayments.

SSA agreed to initiate actions to recover 10 Title II disability overpayments we
identified. The Agency also agreed to conduct its own study of Title II cases with
pending WC claims to detect high-risk and high-payoff cases and use the study results
to accomplish the following:

•   Take steps to reduce its backlog of Title II disability cases that have pending WC
    claims.

•   Develop and implement an automated process to ensure the Agency systematically
    and routinely follows up on new pending WC cases.

•   Explore systems enhancements that would detect situations in which WC is not
    applicable to prevent personnel from retrieving and analyzing cases that no longer
    require development.

To determine the status of corrective actions SSA has taken, we interviewed officials
from SSA’s Office of the Deputy Commissioner for Operations, reviewed policies and
procedures, and updated the volume of Title II disability cases having pending WC
claims for 2 or more years. We relied primarily on SSA’s Master Beneficiary Record4 to
complete our review and determined the data were sufficiently reliable given the audit
objective and use of the data. We conducted our work from January through April 2005
in accordance with generally accepted government auditing standards.




4
 The Master Beneficiary Record is an electronic record of payment-related information for
Title II beneficiaries.
Page 3 – The Commissioner


RESULTS OF REVIEW
Although SSA initiated actions to recover the 10 Title II disability overpayments we
previously identified and studied its pending WC workload, the Agency had not taken
corrective actions to identify and prevent such overpayments and manage its WC
workload. Specifically, SSA had not (1) followed through with steps to reduce its
backlog of Title II disability cases having pending WC claims, (2) developed and
implemented an automated process to ensure the Agency systematically and routinely
follows up on new pending WC cases, and (3) explored systems enhancements that
would detect situations in which WC is not applicable to prevent personnel from
retrieving and analyzing cases that no longer require development.

STEPS TAKEN TO REDUCE BACKLOG OF PENDING WC CASES

Our June 2003 review highlighted the size and growth of the Agency’s pending WC
workload. Based on the results of this review, we remain concerned about the backlog
of Title II cases with pending WC issues. We determined that SSA had not taken steps
to identify the thousands of Title II beneficiaries whom we estimated the Agency
overpaid millions of dollars because of unreported WC payments. The volume of cases
with WC claims pending for 2 or more years increased from 179,284 in July 2001 to
227,615 in January 2005, as illustrated in Figure 1. This represents a 27-percent
increase over the past 3 years. Although we did not attempt to identify overpayments
that may have occurred since July 2001, we expect such overpayments to increase as
the number of pending WC cases increases.

       Figure 1: Title II Cases with WC Issues
                 Pending for 2 or More Years
       250,000

       200,000
                                                             As of July 2001
       150,000                                               As of July 2002
                                                             As of January 2003
       100,000
                                                             As of January 2005
        50,000

              0
Page 4 – The Commissioner


In response to our prior audit, SSA began a study in 2003 to detect high-risk and
high-payoff cases. SSA expected to use the study results to develop a plan for handling
categories of cases where additional processing would be cost-effective. An official
from SSA’s Office of the Deputy Commissioner for Operations told us the study
concluded it would be cost-effective to reduce the backlog of pending WC cases, but
budget constraints prevented the Agency from doing so. While we recognize that
reducing this backlog may require a significant commitment of personnel, we believe
SSA has a stewardship responsibility to prevent, identify and recover overpayments to
the best of its ability. Accordingly, we encourage SSA to commit the necessary
resources to reduce its backlog of Title II disability cases having pending WC claims.

AUTOMATED PROCESS TO ENSURE SSA SYSTEMATICALLY AND ROUTINELY
FOLLOWS UP ON NEW PENDING WC CASES

Our 2003 review determined that SSA did not have an automated process in place to
ensure it systematically and routinely followed up on cases with pending WC issues.
We concluded that millions of dollars in overpayments could have been prevented had
SSA personnel routinely followed up on these cases. As such, we recommended that
SSA develop and implement an automated process to ensure the Agency follows up on
new pending WC cases. In response to our recommendation, SSA stated it would
evaluate and consider any programming issues once it completed its WC study.

Although SSA had not implemented an automated process to follow up on new pending
WC cases, an official from the Office of the Deputy Commissioner for Operations told us
the Agency plans to explore such a process. While we recognize systems
enhancements may require significant resources, we believe these changes would
allow SSA to make timely adjustments to Title II benefit payments and avoid
overpayments. Accordingly, we encourage SSA to commit the necessary resources to
expeditiously develop and implement an automated process to address this issue.

SYSTEMS ENHANCEMENTS TO PROVIDE ACCURATE WC STATUS

Our June 2003 review determined that SSA needed accurate information to effectively
manage its WC workload. We identified thousands of Title II disability cases in which
SSA personnel (1) failed to remove the pending WC designation after resolving WC
claims or (2) had information that WC was not a factor when applicants initially filed for
Title II disability benefits. SSA classified these latter cases as having pending WC
claims because its Modernized Claims System automatically designated them as such
when claimants stated they had work-related injuries. We found that WC was not an
issue in all these cases because claimants had received company disability insurance,
sick pay, or other benefits not offsettable as WC; were self-employed and not
self-insured for WC; or had not filed for WC within the statute of limitations.
Page 5 – The Commissioner


In June 2003, we concluded that knowing the correct status of pending WC cases is
important so SSA personnel will not retrieve and analyze cases no longer requiring
development. As such, SSA stated it would evaluate and consider any programming
issues once it completed its WC study.

Although SSA has not implemented systems enhancements to provide accurate WC
status, an official from the Office of the Deputy Commissioner for Operations told us the
Agency plans to explore such changes. While we recognize systems enhancements
may require significant resources, we believe such changes would prevent personnel
from retrieving and analyzing cases that no longer require development. Accordingly,
we encourage SSA to commit the necessary resources to identify systems
enhancements that would detect situations in which WC is not actually pending.

CONCLUSION
We acknowledge actions taken to recover the 10 Title II disability overpayments we
identified in our prior report and commend the Agency for studying its pending WC
workload. We recognize that following up on the status of WC claims and related
payments can be time-consuming and require significant resources. However, we
believe SSA has a stewardship responsibility to ensure it properly pays beneficiaries,
thus avoiding overpayments.

If SSA does not take steps to effectively manage its pending WC workload, it will
continue to build a significant backlog of pending WC cases and pay millions of dollars
in Title II disability overpayments. Accordingly, we encourage the Agency to implement
the recommendations we made in our June 2003 report. Specifically, SSA needs to
(1) follow through with steps to reduce its backlog of Title II disability cases having
pending WC claims, (2) develop and implement an automated process to ensure the
Agency systematically and routinely follows up on new pending WC cases, and
(3) explore systems enhancements that would detect situations in which WC is not
applicable to prevent personnel from retrieving and analyzing cases that no longer
require development.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with the findings and conclusions presented in the report as well as the
remaining recommendations from our June 2003 report. The full text of SSA’s
comments is included in Appendix A.




                                                S
                                                Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Agency Comments
APPENDIX B – OIG Contacts and Staff Acknowledgments
                  Appendix A

Agency Comments
                                        SOCIAL SECURITY


MEMORANDUM                                                                  35021-24-1387


Date:       August 29, 2005                                                 Refer To: S1J-3

To:         Patrick P. O'Carroll, Jr.
            Inspector General

From:       Larry W. Dye /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, "Follow-up of Pending Workers'
            Compensation: The Social Security Administration Can Prevent Millions in Title II
            Disability Overpayments" (A-08-05-25132) -- INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft
           report content and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries can be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, on extension 54636.

           Attachment:
           SSA Response




                                                      A-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “FOLLOW-UP OF PENDING WORKERS' COMPENSATION: THE SOCIAL
SECURITY ADMINISTRATION CAN PREVENT MILLIONS IN TITLE II
DISABILITY OVERPAYMENTS" (A-08-05-25132)

Thank you for the opportunity to review and comment on the draft report. We are pleased that
the report acknowledges the actions taken by the Agency in response to the June 2003 report,
specifically, that we resolved the ten overpayments noted in that report and that we initiated an
internal study of pending Workers' Compensation (WC) issues. We agree with the findings and
conclusions presented in the report as well as the recommendations, which remain the same as in
the previous report. Accordingly, our response remains the same given that our available
resources are unchanged.

Our specific responses to this report's recommendations are provided below.

Recommendation 1

Follow through with steps to reduce its backlog of Title II disability cases having pending WC
claims.

Response

We agree. We will continue to pursue this initiative to the extent possible. However, our
available resources are limited and prioritized, thereby placing restraints on our ability to
undertake additional efforts.

Recommendation 2

Develop and implement an automated process to ensure the Agency systematically and routinely
follows up on new pending WC cases.

Response

See response to Recommendation 1.

Recommendation 3

Explore systems enhancements that would detect situations in which WC is not applicable to
prevent personnel from retrieving and analyzing cases that no longer require development.

Response

We agree. We have submitted a proposal to the Information Technology Advisory Board
(ITAB) to set up a computer matching agreement with the Center for Medicare and Medicaid
Services to match their Common Working File (CWF) with information in our Master
Beneficiary Record on pending WC alert cases. (The ITAB is an inter-component Agency


                                                A-2
advisory board that evaluates systems projects and priorities and determines which ones can be
accomplished with the Agency’s limited resources.) The CWF contains information about WC
involvement after 2 years of disability entitlement and could be used to help us clear our pending
WC alert cases. To date, the ITAB has not approved the proposal. The proposal will be
discussed for possible inclusion in fiscal year 2007.




                                               A-3
                                                                       Appendix B

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, (205) 801-1605
   Jeff Pounds, Audit Manager, (205) 801-1606


Acknowledgments

In addition to those named above:

   Charles Lober, Senior Auditor
   Lauren Butts, Auditor
   Brennan Kraje, Statistician
   Kim Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to the Common Identification Number A-08-05-25132.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
